               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Address Management System Data

                       Audit Report




                                              February 28, 2014

Report Number DR-AR-14-003
                                                                     February 28, 2014

                                                 Address Management System Data

                                                        Report Number DR-AR-14-003




BACKGROUND:
The U.S. Postal Service uses Address          from non-bargaining to bargaining.
Management System data to deliver             Further, the Postal Service did not have
mail to more than 127 million addresses       a formal standardized training program
in the U.S. Address information is critical   or a follow-up process to ensure
to processing mail through automation         compliance.
to reduce delivery costs. The nation
relies on the Postal Service to maintain      We estimated address corrections
accurate addresses to enable effective        costing about $14 million were not made
commerce and ensure customers                 to the Address Management System in
receive quality service.                      FYs 2012 and 2013. Effective controls
                                              over address corrections would increase
Carriers help maintain address quality        delivery efficiency and avoid future costs
by observing address changes on their         of about $16 million for FYs 2014 and
routes, noting them in their edit books,      2015. Incorrect addresses increase
and submitting them to update the             business mailers’ costs to process
Address Management System. The                returned mail. Inaccuracies could also
Postal Service’s Address Quality              cause mailers to lose confidence in the
Improvement Process identifies routes         effectiveness of mail, which could
with address errors requiring review.         significantly reduce postal revenue.

Our objective was to assess the               WHAT THE OIG RECOMMENDED:
effectiveness of efforts to ensure the        We recommended the vice president,
accuracy of address data in the Postal        Delivery and Post Office Operations, in
Service's Address Management System.          coordination with the vice president,
                                              Product Information, establish deadlines
WHAT THE OIG FOUND:                           for edit book updates, develop a formal
The Postal Service's efforts to reduce        training program, and update supervisor
address database errors were                  training. We also recommended
ineffective. The reported address errors      establishing a follow-up process that
increased from 267,478 in fiscal year         ensures that address errors are
(FY) 2011 to 430,843 in FY 2013,              corrected using Address Quality
primarily because carriers did not            Improvement Process reports and that
update edit books consistently and            necessary street reviews are completed.
management did not conduct necessary
street reviews. The Postal Service            Link to review the entire report
reduced its emphasis on ensuring
address accuracy by initially reducing
the number of address management
specialists by nearly 40 percent and
then reclassifying the specialist position
February 28, 2014

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                            ROBERT CINTRON
                            VICE PRESIDENT, PRODUCT INFORMATION




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                   Audit Report – Address Management System Data
                           (Report Number DR-AR-14-003)

This report presents the results of our audit of the U.S. Postal Service Address
Management System Data (Project Number 13XG016DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Address Management System Data                                                                                     DR-AR-14-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Address Management System Data ................................................................................ 2

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary and Other Impacts..................................................................... 12

Appendix C: Business Mailers’ Purchases of Address Products Fiscal Year 2012 ....... 15

Appendix D: Management's Comments ........................................................................ 16
Address Management System Data                                                                      DR-AR-14-003



Introduction

This report presents the results of our self-initiated nationwide audit of the U.S. Postal
Service’s Address Management System (AMS) data. Our objective was to assess the
effectiveness of efforts to ensure the accuracy of address data in the Postal Service's
AMS (Project Number 13XG016DR000). See Appendix A for additional information
about this audit.

The Postal Service uses AMS data to deliver mail to every address in the country or
more than 127 million delivery points. Accurate address information helps to process
mail through automation to reduce delivery costs associated with manual mail handling.
Further, business mailers purchase address information for delivery of mailpieces to
targeted customers. Correct addressing is critical to reducing the costs associated with
handling returned mail for the Postal Service and its customers.1 The Postal Service
spent $1.31 billion last year processing undeliverable-as-addressed mail, and correct
address data could reduce these costs. As the Postal Service moves forward with
increases in parcels2 and new modernization initiatives,3 the integrity of the address
database is critical. As part of the national address quality program, carriers must
identify address changes and update route edit books during street deliveries and
district personnel must conduct street reviews on selected routes.

Conclusion

The Postal Service’s efforts to reduce address database errors in AMS data were
ineffective. The reported yearly errors have increased, from 267,478 in fiscal year
(FY) 2011 to 430,843 in FY 2013, primarily because edit books were not updated
consistently and street reviews were conducted on only 13 percent of the routes that
needed them. The Postal Service reduced its emphasis on address accuracy by initially
reducing the number of address management specialists by nearly 40 percent and then
reclassifying the position from a non-bargaining specialist position to a bargaining
technician position. Further, the Postal Service did not have a formal standardized AMS
training program or a follow-up process to ensure compliance.

We estimated address error corrections costing about $14 million were not made to the
AMS in FYs 2012 and 2013. Effective controls over address corrections would increase
overall delivery efficiency, reduce reported errors, and avoid future costs of about $16
million for FYs 2014 and 2015. In addition, incorrect addresses increase business
mailers’ costs because they create mailings for these invalid addresses and
subsequently process the associated returned mail. If 50 percent of mailers lose
confidence in purchased address products, we estimate the Postal Service risks losing

1
  Business mailers indicated they spend 39 cents for postage on each mailpiece and between 27 and 29 cents per
mailpiece to resolve address database issues on returned volume that was sent to targeted customers.
2
  Readiness for Package Growth - Delivery Operations, DR-MA-14-001, December 11, 2013.
3
  The Postal Service’s Real Time Scanning Decision Analysis Report indicated that implementation of the Global
Positioning System platform will facilitate electronic edit books. The OIG plans to perform a separate review on
technology use in delivery operations.
                                                              1
  Address Management System Data                                                                   DR-AR-14-003



  more than $3.5 million annually for these products. The Postal Service could lose much
  more revenue if its reputation as a provider of trusted and reliable service is damaged
  and customers move to other communication services.

  Address Management System Data

  Internal controls over AMS data were ineffective in ensuring correct and complete
  address data. The National Customer Support Center (NCSC) reported 430,843
  operational address data errors for FY 20134 on the 226,347 delivery routes.5 These
  errors, which have a negative impact on mail processing and delivery, are derived from
  the Postal Service Address Quality Improvement Process (AQIP) operational error
  reports. These error reports include ZIP Code™ discrepancies, delivery point
  sequencing conflicts, duplicate delivery points, overlapping ranges, high-rise addresses
  improperly coded, or missing defaults. The reported errors increased from 267,478 in
  FY 2011 to 430,843 in FY 2013 (see Table 1).

                 Table 1. NCSC Reported Operational AMS Errors - FYs 2007 - 20136
  Area        Name            FY 2007       FY 2008        FY 2009       FY 2010       FY 2011       FY 2012       FY 2013
4A         New York          2,602,063     1,738,498
4B         Northeast           767,964       744,383        836,219       215,640       171,453        183,780      324,259
4C         Eastern             699,165       304,743         73,328         3,019         7,748         11,769       11,158
4E         Western             346,714       120,890          9,153         5,425         5,685         27,309       11,926
4F         Pacific             502,453       134,469        153,027        54,156        48,387         53,954       54,237
4G         Southern                  *             *              *             *             *          9,776        5,221
4G         Southwest           124,569        13,595         17,291         1,000         4,785              *            *
4H         Southeast           988,768       568,415         73,845         4,596         3,992              *            *
4J         Great Lakes          57,982        19,343          2,455         2,484         2,715          8,526        1,312
4K         Capital Metro       236,486        13,302          3,319         3,819         3,380          7,610        2,968
           Unassigned            2,016       120,687         19,708        20,087        19,333         19,806       19,762
Total                        6,328,180     3,778,325      1,188,345       310,226       267,478        322,530      430,843
  *- Indicates no error data.
  Source: OIG analysis of AQIP operational address error data.




  4
    Data as of September 19, 2013. NCSC officials indicated that the reported errors do not include the actual life of the
  errors; however, evidence does support error carryovers. NCSC officials indicated that to determine the actual life of
  the errors would not be practical, due to the significant amount of retroactive work that would be required. The error
  data excludes addresses managed by military post offices. These data are not subject to AMS quality standards.
  5
    NCSC develops products and services to help the Postal Service and the mailing industry fully and efficiently use
  their automation systems and software. NCSC's mission is to support the Postal Service with a quality address
  database, secure change of address system, address policies and programs, and customer address products to
  facilitate timely and cost effective coding, sorting, and delivery of the mail.
  6
    The Northeast Area received the addition of the New York District through Postal Service reorganization/
  realignments. The New York District historically had a challenge maintaining accurate AMS data due to changes
  associated with high-rise buildings, primarily delivery point sequence (DPS) conflict errors. These errors were
  discussed in a prior OIG AMS nationwide report.



                                                             2
Address Management System Data                                                     DR-AR-14-003



Errors increased for several reasons, including:

   Inconsistent edit book updates. For delivery units we visited, we identified instances
    in which carriers’ edit books showed no changes for more than 1 year on their
    assigned routes and updates submitted to unit supervisors were not corrected in the
    AMS database and associated subsystems. Unit supervisors change the AMS
    database based on carrier edit book submissions documented on web electronic edit
    sheets. Supervisors correct improper change of address submissions in the
    Electronic Uncoded Address Resolution Service system, and correct potential
    missing delivery points using the Delivery Sortation Management Automation
    Research Tool. Officials indicated that workload priorities associated with timely mail
    delivery make it challenging for supervisors to ensure updates and changes take
    place. Postal Service policy does not establish specific timeframes for various
    processes, including edit book updates.

   Street reviews were not always performed. In the seven postal areas, we identified
    street review targets that were not attained. For FY 2012, only 13 percent of the
    routes identified for street reviews were reviewed, which was well below the
    established 60 percent target (see Table 2).

                   Table 2. FY 2012 Total Routes, AQIP Routes Identified
                               and Street Reviews Completed
                                                   Total Actual
                         Total        Total           Street       Total Percent    Total Percent of
                         City         AQIP           Reviews        of Routes      Routes Reviewed
n                         and       Identified    Performed by     Reviewed by      by Delivery and
                         Rural       Routes       Delivery and     Delivery and     AMS Personnel
                        Delivery    for Street        AMS              AMS         Compared to the
     Postal Areas       Routes       Review         Personnel       Personnel         60 % Target
    Capital Metro        23,295         11,645             4,719             41%                -19%
    Eastern              36,900         20,378             1,149              6%                -54%
    Great Lakes          29,050         14,528             6,217             43%                -17%
    Northeast            29,371         14,141             2,901             21%                -39%
    Pacific              23,743          9,915                98              1%                -59%
    Southern             45,127         26,310               456              2%                -58%
    Western              38,861         22,039               192              1%                -59%
    Total               226,347       118,956             15,732             13%                -47%

                                                             i
    Source: OIG Analysis of Postal AQIP Street Review Results.
    Source: OIG analysis of street reviews.

    District AMS personnel had to perform reviews (including follow-up reviews) on
    10 percent of the required AQIP routes and delivery unit officials had to conduct
    such reviews on 50 percent of the routes. Street reviews are conducted under the
    Delivery/AMS Quality Review Guidelines to validate the number of possible delivery
    addresses assigned to each carrier route and ensure: all possible delivery
    addresses are identified and are included in the appropriate files; the correct line of
    travel or delivery sequence for each carrier route; and that ZIP+4® Codes are
    assigned to maximize automation compatibility. These reviews also ensure

                                                       3
Address Management System Data                                                                 DR-AR-14-003



    standardization of addresses under Publication 28, Postal Addressing Standards,
    and that products derived from the AMS database meet the needs and expectations
    of our customers. Officials indicated that performing the street reviews and reviewing
    address data error online reports to make necessary corrections (which also
    includes contacting customers) is a challenge because of other workload priorities,
    overseeing multiple locations, and insufficient and untrained staff.

   Loss of AMS staff positions. From FYs 2007 to 2013, officials made two major
    reductions in AMS staff positions. First, they reduced AMS staff from 599 to 371
    positions, a 38-percent reduction, and a hiring freeze was in place as the arbitration
    discussions continued with the American Postal Workers Union (APWU). Officials
    reduced staff a second time following the APWU labor agreement,7 dated
    September 25, 2012, which resulted in transferring all AMS specialist positions to
    the clerk craft (now called AMS technicians). The AMS specialists, Executive and
    Administrative Schedule (EAS)-15 positions were reclassified from non-bargaining to
    bargaining AMS technicians, P7-07 positions.8 As part of the agreement, AMS
    specialists had to vacate their positions by March 9, 2013. This change created
    additional vacancies and further loss of personnel with the institutional knowledge to
    conduct street reviews and correct address database errors. Officials indicated the
    AMS technician positions require decision-making skills and are not just data entry
    jobs. Managers said it has been challenging to find the right staff. All AMS technician
    positions were to be filled by March 10, 2013, per the APWU agreement. As of
    August 5, 2013, Postal Service officials had filled 316 of the 319 authorized AMS
    technician positions.

   No standardized AMS training program. We found some instances in which AMS
    technicians were being trained on the job and training techniques varied by location.
    The Postal Service's new delivery supervisor training course does not include a
    module on AMS instructions for street reviews and reviewing and correcting address
    data error online reports.

   No follow-up process. We found the Postal Service did not establish a follow-up
    process to ensure use of the AMS AQIP error report to correct errors, timely edit
    book updates, and complete required street reviews to reduce delivery costs and
    enhance customer service for business mailers.




7
  APWU labor agreement, dated September 25, 2012. Management oversight remained unchanged with Delivery and
Post Office Operations officials overseeing the edit book update controls and Product Information officials overseeing
the AQIP street review controls.
8
  The AMS specialists, EAS-15 position, had a fully loaded labor rate of $48.05 per hour for FY 2013. The AMS
technician, P7-07 position, had a fully loaded rate for FY 2013 of $45.31 per hour. The P7-07 technician position is
able to earn overtime.


                                                          4
Address Management System Data                                                                   DR-AR-14-003



We estimated address corrections costing about $14 million were not made to the AMS
in FYs 2012 and 2013. However, opportunities exist to reduce reported errors for cost
avoidance of about $16 million for FYs 2014 and 2015.9 Further, if 50 percent of
business mailers lose confidence in purchased address products, the Postal Service
could lose more than $3.5 million annually and its reputation as a trusted and reliable
service provider could be damaged. A much larger revenue loss could result if
customers move to other communication services.

Recommendations

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the vice president, Product Information:

1. Revise and implement delivery policy to include specific time requirements for carrier
   edit book updates, submissions to delivery supervisors, and error corrections in
   address systems.

2. Develop and implement a formal Address Management System training program.

3. Develop and incorporate an Address Management System module in the delivery
   supervisor's training course.

4. Establish and sustain a follow-up process to correct address errors using the
   Address Quality Improvement Process reports and complete necessary street
   reviews.

Management’s Comments

Management agreed in principle with the four recommendations. Management also
agreed with the monetary impact.

Regarding recommendation 1, management will develop a tracking and reporting tool to
monitor how frequently edit books are updated. Management will also determine a
methodology for factoring key indicators that would show when staff would likely need to
update an edit book and a specific time requirement for completing the updates. The
target implementation date is October 2014.

Regarding recommendation 2, management has coordinated with Professional and
Skills Development to create a formal training program in the Learning Management
System (LMS) for all new Address Management personnel. Management updated this
training module in Quarter 4 of FY 2013 and began to require all AMS technicians and


9
  The OIG relied on NCSC AQIP Operational Address Error Data for FYs 2012 to 2013 to determine potential cost
impact. The NCSC AQIP reported errors do not include the actual life of the errors; however, evidence does support
error carryovers. It would not be practical to determine the actual life of the errors due to the significant amount of
retroactive work that would be required.


                                                           5
Address Management System Data                                           DR-AR-14-003



product information quality analysts to complete the AMS training module in the LMS.
The target implementation date was January 2014.

Regarding recommendation 3, management will update the existing training module and
integrate it into the newly promoted delivery supervisor’s training requirements. After
updating the training module, management will establish a process to ensure all existing
delivery supervisors receive the updated training module. The target implementation
date is September 2014.

Regarding recommendation 4, management will determine a monitoring and reporting
process that identifies addressing related conditions requiring attention and action.
Where a street review may be necessary, management will establish a process to
ensure appropriate follow-up is performed. The target implementation date is October
2014.

Management disagreed with the OIG’s assertion that the Postal Service has reduced its
emphasis on ensuring address accuracy. They said staffing adjustments in Address
Management personnel were necessitated by other compelling business factors.
Officials also indicated the Postal Service remains committed to address quality and has
initiated numerous programs that enhance address quality by using new data sources
and collection methods.

Management also noted the OIG failed to acknowledge the Postal Service significantly
improved address quality from FYs 2007 to 2011 and opted instead to focus on a recent
increase in potential errors. Management said they are confident the levels of address
quality that were evident in the past will be restored as a result of completing the AMS
personnel transitional phase and new efforts underway to capture address information.
Management stated that improved knowledge and understanding will occur as new
AMS personnel gain more experience.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Management disagreed with the OIG’s assertion that the Postal Service has reduced its
emphasis on ensuring address accuracy due to staffing adjustments in address
management personnel. The OIG acknowledged the Postal Service transferred all AMS
specialist positions to the clerk craft (now called AMS technicians) due to a hiring freeze
and labor union agreements. However, opportunities exist for officials to provide more
formal training to new AMS staff who do not know how to conduct street reviews and
correct address database errors, as management has stated the AMS technician
positions require decision-making skills and are not just data entry jobs.



                                             6
Address Management System Data                                         DR-AR-14-003



Officials also indicated the Postal Service remains committed to address quality and has
initiated numerous programs that enhance address quality by leveraging new data
sources and collection methods. The OIG acknowledged the Postal Service's
commitment to address quality and its new initiatives. We identified opportunities for
officials to improve internal controls over AMS data. The nation relies on the Postal
Service to maintain accurate addresses to enable effective commerce and ensure
customers receive quality service.

Management also noted that the OIG failed to acknowledge the Postal Service
significantly improved address quality from FYs 2007 to 2011 and opted instead to
focus on a recent increase in potential errors. The OIG does acknowledge the NCSC
Reported Operational AMS Error from FYs 2007 – 2013 in the finding, which shows a
decline over that period.

The OIG considers all recommendations significant, and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that they can be closed.




                                           7
Address Management System Data                                                              DR-AR-14-003




                                  Appendix A: Additional Information

Background

Address management is the foundation the Postal Service uses to deliver mail to every
address in the country and to process mail through automation to more than 127 million
delivery points on 226,347 delivery routes.10 The nation relies on the Postal Service to
maintain accurate address data to facilitate effective commerce, to ensure customers
receive the appropriate service, and to support disaster relief efforts. Striving to obtain
the highest quality of address information is of utmost importance for processing mail on
automated equipment and providing address products to customers. Incorrect and
incomplete address information adversely impacts processing of mail on automated
equipment and contributes to additional work at delivery units associated with carriers
manually casing mail not in DPS.11 In addition, business mailers purchase address
products to place Intelligent Mail® barcode. This helps them eliminate rehandling
returned mailpieces and losing targeted customers due to undeliverable mail.

During FY 2012, business mailers purchased various Postal Service address products
and made 7,166 payments, generating $7,137,890 in revenue (see Appendix C). These
address products, and the accuracy of the data the Postal Service uses to produce
them, are critical to reducing the cost of processing undeliverable-as-addressed mail.
This problem costs the Postal Service about $1.31 billion per year.

During FY 2012, the Postal Service processed 68.6 billion mailpieces. Of those,
63.7 pieces (93 percent) were processed on automated equipment into delivery
sequence and the remaining 4.9 billion pieces (7 percent) were processed manually.

In response to the 2007 OIG audit, Address Management System Information-National
Capping (Report Number DR-AR-07-012, dated August 29, 2007), the vice president,
Delivery and Retail, and the senior vice president, Intelligent Mail and Address Quality,
issued a joint memorandum to area vice presidents implementing the AQIP to evaluate
the quality of AMS data and meet the goal of having accurate address information
nationwide. The process was not designed to replace current national address quality
programs but to help improve address quality by identifying for review those routes with
errors having the greatest negative impact on processing and delivery. District
personnel and trained Delivery and AMS staff had to review 60 percent of the AQIP
identified routes based on Postal Service guidelines.12 Carriers also identify address
changes, update route edit books with notations during their street deliveries, and
submit the results to their supervisors for correction in the AMS. Carriers must update

10
   Information as of February 8, 2013.
11
   The AMS captures address information in sort programs used to process/sort mail in DPS on a barcode sorter. Mail
that cannot be processed on automated equipment requires manual processing, which is less efficient and more
costly to the Postal Service.
12
   Street reviews conducted in accordance with the Delivery/AMS Quality Review Guidelines. District AMS personnel
were required to perform reviews (including follow-up reviews) on 10 percent of the required Address Quality Review
Team identified routes and unit officials were required to perform reviews on 50 percent of the identified routes.


                                                        8
Address Management System Data                                               DR-AR-14-003



route changes, such as new construction and new buildings, in their edit books. Carriers
must keep the edit books accurate and up to date.

As the Postal Service moves forward with increases in parcels and new modernization
initiatives, address database integrity is critical to its reputation as a provider of trusted
and reliable universal delivery service.

Objective, Scope, and Methodology

Our objective was to assess the effectiveness of efforts to ensure the accuracy of
address data in the Postal Service's AMS.

To accomplish our objective, we:

      Reviewed documentation and applicable policies and procedures related to
       maintaining quality address information in the AMS, including current methodologies
       used to identify and correct AMS data deficiencies.

      Performed follow-up work on the 2007 OIG audit, Address Management System
       Information - National Capping (Report Number DR-AR-07-012, dated August 29,
       2007) regarding address accuracy of AMS information in postal areas.

      Reviewed Association of Postal Commerce podcast information to determine
       business mailers’ concerns related to AMS data management.

      Obtained data on FY 2012 delivery AMS quality reviews from the NCSC to analyze
       the routes reviewed, AMS data errors identified, and corrections made.

      Obtained FY 2012 subscription service revenue data from the NCSC.

      Obtained AQIP Operational Address Yearly Error data for FYs 2007 to 201313
       reported by NCSC to analyze the AMS data errors identified, and the yearly
       changes.




13
     Data as of September 19, 2013.


                                               9
Address Management System Data                                                                  DR-AR-14-003




    Relied on NCSC AQIP Operational Address Error Data14 reported for FYs 2011 to
     2013 in determining potential cost impact. These errors, which have a negative
     impact on processing and delivery of mail, are derived from the Postal Service AQIP
     operational error reports. They include: ZIP Code discrepancies, delivery point
     sequencing conflicts, duplicate delivery points, overlapping ranges, and high-rise
     addresses improperly coded or missing defaults (see Appendix B).

    Judgmentally selected area, district, and unit locations to visit based on actual street
     reviews completed for the AQIP and identified delivery routes in comparison to the
     target review goals and geographical locations to minimize project travel costs.

    Interviewed Postal Service Headquarters, areas, district, and selected unit officials to
     discuss the increase in address errors, edit books, and street review internal
     controls.

We conducted this performance audit from January 2013 through February 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 10 and 18, November 5, 2013,
and January 8, 2014, and included its comments where appropriate.

We relied on AQIP Operational Address Yearly Error data for FYs 2007 to 201315
reported by NCSC in Postal Service database systems. These errors, which have a
negative impact on processing and delivery of mail, are derived from the Postal Service
AQIP operational error reports. We did not directly audit the systems, but performed a
limited data integrity review to support our data reliance. We assessed the reliability of
AMS database error data from NCSC by reviewing existing information about the data
and the system that produced it, and interviewing agency officials knowledgeable about
the data. We determined that the data were sufficiently reliable for the purposes of this
report.




14
   The NCSC AQIP reported errors do not include the actual life of the errors; however, officials indicated that
evidence does support error carryovers. To determine the actual life of the errors would not be practical due to the
significant amount of retroactive work that would be required.
15
   Data as of September 19, 2013.


                                                          10
Address Management System Data                                          DR-AR-14-003



Prior Audit Coverage

The OIG issued a report titled, Delivery Operations Data Usage (Report Number
DR-AR-13-001, dated October 11, 2012), which found there are a substantial number of
systems, reports, and data indicators supporting city delivery operations. We identified
44 systems containing city delivery data and over 160 reports from various systems with
thousands of data points. We also found that new unit supervisors and managers did
not always know how to use tools and data to manage operations. Further, our
assessment of 32 prior OIG and U.S. Government Accountability Office delivery reports
showed there were ongoing issues in delivery operations, which include data usage,
availability, and accuracy. For rural delivery, there is no centralized system containing
routes, workhours, and other management information. Management agreed with the
findings and recommendations.




                                           11
Address Management System Data                                                                  DR-AR-14-003




                             Appendix B: Monetary and Other Impacts
             Recommendation                   Impact Category                            Amount
                   4                      Questioned Cost16                              $ 6,037,761
                   4                      Questioned Cost                                  8,065,380
                                          Subtotal                                        14,103,141
                         4                Funds Put To Better Use17                        8,065,380
                         4                Funds Put To Better Use                          8,065,380
                                          Subtotal                                       $16,130,760
                 Total                                                                   $30,233,901

We estimate that the Postal Service had potential questioned costs of $14,103,141 for
FYs 2012 and 2013. However, effective controls over address corrections would
increase overall efficiency and provide future potential cost avoidance of $16,130,760
for FYs 2014 and 2015.

We calculated the total questioned cost of $14,103,141 for FYs 2012 and 2013 as
follows:

    We extracted and reviewed the number of AMS errors for FYs 2012 and 2013 to
     arrive at the total address database errors (see Table 3).

                             Table 3. Address Error Cost Impact
                                Actual     Average
                             Number of AMS Error
                                 AMS         Rate
                              Address       Number
                              Database    Escalation Potential Cost
                       FYs      Errors      Added          Impact
                       2012    322,530      $18.72         $ 6,037,761
                       2013    430,843      $18.72           8,065,380
                       Total   753,373                     $14,103,141
                       Source: OIG analysis.

    We developed an overall average AMS rate of $18.72, with no added escalation
     factor, based on prior audit “per error” rate information and coordination with NCSC
     officials on the data crosswalk for the five address errors categories used in AQIP to
     identify routes for street review. The average $18.72 error rate we developed
     excluded the “+4” discrepancy category as we applied a conservative cost-saving
     approach. The average AMS rate calculation of $18.72 is $6.18 less than the $24.90
     per error rate used in the previous OIG AMS audits conducted in 2007.


16
   A cost the OIG believes is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or
contract.
17
   Funds the Postal Service could use more efficiently by implementing recommended actions.


                                                          12
Address Management System Data                                         DR-AR-14-003



   We multiplied the total database errors for FYs 2012 and 2013 by the average AMS
    rate of $18.72 to arrive at the potential cost impact for FYs 2012 and 2013.

We calculated funds put to better use of $16,130,760 as follows:

   We projected the future number of AMS address database errors based on a trend
    of the errors from FYs 2011 through 2013. The projection resulted in 430,843 errors
    in FY 2014 and 430,843 in FY 2015 (see Table 4).

                        Table 4. Address Error Cost Impact
                         Projected
                        Number of     Average
                            AMS      AMS Error
                         Address       Rate No
                         Database    Escalation Potential Cost
                   FY      Errors      Added          Impact
                  2014    430,843      $18.72         $ 8,065,380
                  2015    430,843      $18.72           8,065,380
                  Total   861,686                     $16,130,760
                  Source: OIG analysis.



   We used the previously developed overall average AMS rate of $18.72.

   We multiplied the total projected adjusted address database errors for FYs 2014 and
    2015 by the average AMS rate of $18.72 to arrive at the potential cost impact for
    FYs 2014 and 2015.




                                           13
Address Management System Data                                                              DR-AR-14-003




                                                 Other Impacts

               Recommendation                   Impact Category                       Amount
                     4                     Potential Loss In Revenue18                $3,568,945
                     4                     Potential Loss In Revenue                   3,568,945
                   Total                                                              $7,137,890

If business mailers lose confidence in purchased address products, we estimate the
Postal Service is at risk of annual potential loss in revenue of $3,568,945 for addressing
products. A much larger revenue loss could result if the Postal Service’s reputation as a
provider of trusted and reliable service is damaged and customers move to other
communication services.

We calculated the other impact potential loss in revenue based on the following:

    During FY 2012, business mailers made 7,166 purchases that included
     3,243 customer requests and 3,923 annual renewals for address products, which
     generated revenue of $7,137,890 in FY 2012 for the Postal Service. See
     Appendix C.

    Mailing industry officials have expressed concern with the Postal Service’s lack of
     accountability regarding edit book updates, completion of AMS street reviews, and
     addition of new addresses into the AMS.

    Business mailers indicated that incorrect and incomplete address information
     impacts their ability to deliver mailpieces to customers, which results in rehandling of
     returned mailpieces and losing targeted customers due to mail being undeliverable.

    Business mailers indicated they spend 39 cents for postage on each mailpiece and
     between 27 and 29 cents per mailpiece to resolve address issues on returned
     volume.

    Using the information discussed above, we calculated the other impact potential loss
     in revenue based on the assumption that 50 percent of the business mailers would
     abandon the Postal Service.




18
  Revenue the Postal Service could potentially generate for goods delivered or services rendered based on
suggested improvements.


                                                        14
Address Management System Data                                                        DR-AR-14-003



                    Appendix C: Business Mailers’ Purchases of Address
                                Products Fiscal Year 2012

                                                                                   Total Revenue
                                                                      Number of    Generated from
                                                                      Customer       Customer
                                                                      Payments       Payments
                    Postal Service Address Products                   in FY 2012      FY 2012
      Address Element Correction (Caps) - Per customer request             2,361        $ 275,771
      Address Element Correction II (Caps) - Per customer request            829           597,188
      Electronic Address Sequence                                             53             7,658
      Presort Accuracy Validation Evaluation - Per Customer Request            0                0
      Total - Customer Requests                                            3,243        $ 880,617
      Address Information System - Annual Renewal                          1,775        $ 804,602
      Address Information System Viewer - Annual Renewal                   1,009            88,187
      Address Matching System - Annual Renewal                               206         1,039,807
      Computerized Delivery Sequence - Annual Renewal                        534         2,279,049
      Delivery Point Validation - Annual Renewal                              34           357,000
      Delivery Sequence File - Annual Renewal                                 15         1,560,000
      Fast Forward - Annual Renewal                                           12            24,470
      Locatable Address Conversion System Link - Annual Renewal               36            12,440
      Residential Delivery Indicator - Annual Renewal                        284            85,596
      Topological Integrated Geographic Encoding - Annual Renewal             18             6,122
      Total - Annual Renewal                                               3,923        $6,257,273
      Total - Customer Request and Annual Renewals                         7,166        $7,137,890




                                                        15
Address Management System Data                              DR-AR-14-003



                        Appendix D: Management's Comments




                                       16
Address Management System Data        DR-AR-14-003




                                 17
Address Management System Data        DR-AR-14-003




                                 18
